No. 20-107
IN THE

Supreme Court of the United States
CEDAR POINT NURSERY AND FOWLER PACKING
COMPANY, INC.,
Petitioners,
v.
VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR
OF THE AGRICULTURAL LABOR RELATIONS BOARD,
ET AL.,
Respondents

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF AMICUS CURIAE
NEW ENGLAND LEGAL FOUNDATION
IN SUPPORT OF PETITIONERS
Counsel for Amicus Curiae
John Pagliaro
Counsel of Record
Martin J. Newhouse, President
New England Legal Foundation
150 Lincoln Street
Boston, Massachusetts 02111
Tel.: (617) 695-3660
johnpagliaro@nelfonline.org
Dated: January 6, 2021
BATEMAN & SLADE, INC.

STONEHAM, MASSACHUSETTS

TABLE OF CONTENTS
TABLE OF AUTHORITIES .......................................ii
INTEREST OF AMICUS CURIAE ............................ 1
SUMMARY OF THE ARGUMENT............................ 2
ARGUMENT ............................................................... 3
I.

In Neither Portsmouth Harbor Nor Causby
Did The Taking Depend On The Economic
Harm Caused By The Government; In
Both, The Servitude Was Treated As
Directly Physically Imposed And
As Per Se ..................................................... 3

II.

Kaiser Aetna Was Not Decided As A
Penn Central Regulatory Taking;
The Easement Was Treated As An
Imposed Physical Invasion ....................... 11

CONCLUSION.......................................................... 16

i

TABLE OF AUTHORITIES
Andrus v. Allard, 444 U.S. 51 (1979) .................13, 14
Cedar Point Nursery v. Shiroma,
923 F.3d 524 (2019) ........................................11
Cedar Point Nursery v. Shiroma,
956 F.3d 1162 (2020) ..............................4, 9, 10
First English Evangelical Lutheran Church of
Glendale v. Los Angeles County,
482 U.S. 304 (1987) ........................................10
Kaiser Aetna v. United States,
444 U.S. 164 (1979) .................................. 11-16
Lucas v. South Carolina Coastal Council,
505 U.S. 1003 (1992) ....................11, 12, 13, 15
Peabody v. United States, 231 U.S. 530 (1913) ......5, 6
Penn Central Transportation Co. v. New York City,
438 U.S. 104 (1978) ..................3, 11, 14, 15, 16
Pennsylvania Coal Co. v. Mahon,
260 U.S. 393 (1922) ........................................15
Portsmouth Harbor Land and Hotel Co. v.
United States, 260 U.S. 327 (1922) ............ 3-10

ii

Tahoe-Sierra Preservation Council, Inc. v. Tahoe
Regional Planning Agency, 535 U.S. 302
(2002) ........................................................ 10-11
United States v. Causby, 328 U.S. 256 (1946)...... 9-11
United States v. Miller,
317 U.S. 369 (1943) ..................................14, 15
United States ex rel. TVA v. Powelson,
319 U.S. 266 (1943) ..................................14, 15

iii

INTEREST OF AMICUS CURIAE1
The New England Legal Foundation (NELF) is a
nonprofit, nonpartisan, public-interest law firm
incorporated in Massachusetts in 1977 and
headquartered in Boston. Its membership consists
of corporations, law firms, individuals, and others
who believe in NELF’s mission of promoting
balanced economic growth in New England and the
nation, protecting the free-enterprise system, and
defending individual economic rights and the rights
of private property. In fulfillment of its mission,
NELF has filed numerous amicus briefs in this
Court in a great variety of cases.
NELF appears as an amicus in the present case
because a core part of its mission has long been the
defense of private property rights, and many of
NELF’s briefs in this Court have dealt with takings
issues. NELF’s interest in this case specifically lies
in the important issues of takings law raised by the
Petitioners in the Question Presented.
As the
Petition explained, the answer this Court gives to
that question will have ramifications in many areas
of governmental regulation. Pet. at 27-31. How the
Court decides this case will also delineate more
clearly the scope of the right to exclude, which is a
Pursuant to Supreme Court Rule 37.6, NELF states that no
party or counsel for a party authored this brief in whole or in
part and that no person or entity, other than NELF, made any
monetary contribution to its preparation or submission.
Pursuant to Supreme Court Rule 37.3(a), NELF has obtained
the consent of all parties. On December 2, 2019 Petitioners
filed a blanket consent to the filing of amicus briefs in support
of either or neither party, and by email dated December 21,
2020, the Deputy Solicitor General of California granted the
consent of the Respondents to the filing of this brief.
1

1

cardinal attribute of private ownership. Hopefully,
too, the Court’s interpretations of its own past
decisions will clarify the proper understanding of
those decisions, which are now frequently points of
marked contention between litigants, as the briefing
in this case illustrates.
For these reasons, NELF has filed this brief to
assist the Court by providing an explication of three
of its relevant past decisions.
SUMMARY OF THE ARGUMENT
As this case has illuminated, there exist
considerable differences in the views taken of this
Court’s past takings decisions. Any reliance on the
following three cases in order to establish that the
claims here must be analyzed as regulatory takings
would be mistaken. In none of them did the holding
turn on a multifactor analysis in which extent of
economic injury played the dominant role.
A close examination of Portsmouth Harbor Land
and Hotel Co. v. United States, 260 U.S. 327 (1922),
reveals that the Court focused exclusively on the
physical character of the government’s actions in
firing coastal artillery and on whether these actions
could be seen to imply an intention physically to
subordinate private property interests to the public
interest, i.e., to take an easement. The decision did
not consider or weigh the extent of any harms
suffered by the claimant.
Similarly, in United States v. Causby, 328 U.S.
256 (1946), in which the Court explicitly declared it
would follow the “philosophy of Portsmouth Harbor,”
the Court considered whether direct airspace
invasions made by military aircraft were an exercise
of such dominion and control over the land below
2

that an easement of flight had been imposed on
private property by the government.
Finally, in Kaiser Aetna v. United States, 444
U.S. 164 (1979), the Court rejected the argument
that background legal principles created a
navigational servitude that would allow the public
free access to private property. The Court ruled that
the government would have to pay for the public
easement it claimed because such access would be a
physical invasion and a direct appropriation of a
property interest, much like the taking of an entire
fee interest by eminent domain.
ARGUMENT
I. In Neither Portsmouth Harbor Nor Causby
Did The Taking Depend On The Economic
Harm Caused By The Government; In Both
The Servitude Was Treated As Directly
Physically Imposed And As Per Se.
In their Brief in Opposition (BIO), the
Respondents argued that Portsmouth Harbor Land
and Hotel Co. v. United States, 260 U.S. 327 (1922),
established that “only if the invasions substantially
impaired the plaintiffs’ use of their property” could a
taking be found. BIO at 15. They clearly intend to
steer the Court into viewing this case under the
Penn Central multifactor test applicable to a
regulatory taking. See id. at 12 (claims subject to
“multi-factor regulatory” analysis, but Petitioners
chose not to assert Penn Central claims). See Penn
Central Transportation Co. v. New York City, 438
U.S. 104 (1978). In support of their view, they quote
selectively from Portsmouth Harbor, a pre-Penn
Central case. Judge Paez, in his concurrence with
the denial of en banc review, seems to take
3

substantially the same position and quotes the same
passage from Portsmouth Harbor.
The Respondents’ supporting citation to
Portsmouth Harbor contains a parenthetical that
reads as follows: “if ‘the Government . . . fire[s]
projectiles directly across’ property, ‘with the result
of depriving the owner of its profitable use,’
compensation would be required.” BIO at 15 n.7
(quoting Portsmouth Harbor) (original alterations).
Judge Paez, for his part, described Portsmouth
Harbor’s inquiry as “limited” to finding a taking
“when the intrusion ‘result[ed] in depriving the
owner of its profitable use[.]’” Cedar Point Nursery v.
Shiroma, 956 F.3d 1162, 1163 (9th Cir. 2020)
(quoting Portsmouth Harbor) (failure to note
alteration of “of’ to “in” and emphasis original to
concurrence).
Both uses of the quotation are highly misleading,
however. The taking analysis found in Portsmouth
Harbor focused solely on whether an intention to
take by physical invasion could be attributed to the
government from the acts of its officers. Both the
majority opinion, written by Justice Holmes, and the
dissent of Justice Brandeis agreed that extent of
harm was irrelevant to the takings question in that
case.
The Portsmouth Harbor passage in question is
itself a quotation from a related case dealing with
the same long-running dispute. The quotation reads
in its entirety as follows:
‘If the Government had installed its
battery, not simply as a means of
defense in war, but with the purpose
4

and effect of subordinating the strip of
land between the battery and the sea to
the right and privilege of the
Government to fire projectiles directly
across it for the purpose of practice or
otherwise, whenever it saw fit, in time
of peace, with the result of depriving
the owner of its profitable use, the
imposition of such a servitude would
constitute an appropriation of property
for which compensation should be
made.’
Portsmouth Harbor, 260 U.S. at 329 (quoting
Peabody v. United States, 231 U.S. 530, 538 (1913)).
Conspicuous by its absence from the Brief in
Opposition and Judge Paez’s concurrence is any
reference to the installation of the guns having “the
purpose and effect of subordinating the strip of land
. . . to the right and privilege of the Government to
fire projectiles directly across it . . . whenever it saw
fit, in time of peace” (emphasis added). Contra
Judge Paez, so far from being “limited” to economic
harms, the taking inquiry of both Peabody and
Portsmouth Harbor dwelt entirely on the question of
the government’s intention to “subordinat[e]” private
property rights physically to the public interest by
installing and then firing the large coastal guns
“whenever it saw fit.”
In the related Peabody case, for example,
immediately after the passage later quoted in
Portsmouth Harbor, the Court wrote in 1913:
[T]he question remains whether it
satisfactorily appears that the servitude
has been imposed; that is, whether
5

enough is shown to establish an
intention on the part of the government
to impose it. The suit must rest upon
contract, as the government has not
consented to be sued for torts, even
though committed by its officers in the
discharge of their official duties . . . and
a contract to pay, in the present case,
cannot be implied unless there has been
an actual appropriation of property . . . .
That there is any intention to repeat it
[i.e., the firing of the guns] does not
appear, but rather is negatived. . . . We
deem the facts found to be too slender a
basis for a decision that the property of
the claimants has been actually
appropriated, and that the government
has thus impliedly agreed to pay for it.
231 U.S. at 538-540 (emphasis added). Note that
any taking was seen to turn on the government’s
intention to assert de facto superior rights over
private property by firing its coastal guns at will
invasively over the property. If such facts were
shown, the Court said, the government would have
made “an actual appropriation of property.”
For the same reasons, when the takings claim
came before the Court again in 1922 in Portsmouth
Harbor, the Court again focused on what intention
could be read into the government’s overt, physical
acts, and not on the extent of harm. As Justice
Holmes wrote in the sentence immediately preceding
his insertion of the Peabody quotation, “[t]here is no
doubt that a serious loss has been inflicted upon the
claimant, . . . and . . . it is decided that that and the
previously existing elements of actual harm do not
6

create a cause of action.” Portsmouth Harbor, 260
U.S. at 329 (emphasis added).
After reviewing the new facts that had
emerged since the Court’s last decision on the
dispute, Justice Holmes wrote that the Court now
viewed a taking as adequately pled:
[E]ven when the intent thus to make
use of the claimants’ property is not
admitted [by the United States], while a
single act may not be enough, a
continuance of them in sufficient
number and for a sufficient time may
prove it [i.e., intent]. . . . As we have
said the intent and the overt acts are
alleged as is also the conclusion that
the United States has taken the land.
That we take to be stated as a
conclusion of fact and not of law, and as
intended to allege the actual import of
the foregoing acts. In our opinion the
specific facts set forth would warrant a
finding that a servitude has been
imposed.
Id. at 329-30 (emphasis added). Significantly, the
new facts were that the government had replaced
the old guns with “heavy coast defence [sic] guns,”
once again fired its guns at will in peacetime, and
had established a fire-control station to service the
artillery. Id. at 329. These acts could be seen to
imply an intention to “‘subordinat[e] the strip of land
between the battery and the sea to the right and
privilege of the Government to fire projectiles
directly across it, ’” id. at 329, and hence physically
to “impose[]” an implied easement of fire, id. at 330.

7

Should any doubts remain that the taking
claim in Portsmouth Harbor turned not on economic
injury but rather on an intention of the government
to act in such a way as physically to subordinate
private property rights to the public interest, Justice
Brandeis’s dissent should eliminate them. He began
by stating his points of agreement with the majority.
I agree that, in time of peace, the
United States has not the unlimited
right to shoot from a battery over
adjoining private property, even if no
physical damage is done to it thereby;
that a single shot so fired [i.e., fired in
time of peace and without damage to
private property] may, in connection
with other conceivable facts, justify a
court in finding that the government
took, by eminent domain, the land or an
easement therein; and that such taking,
if made under circumstances which give
rise to a contract implied in fact to pay
compensation, will entitle the owner to
sue in the Court of Claims.
Id. at 330-31 (emphasis added).
As Justice Brandeis explained in the
remainder of his dissent, the “conceivable facts” and
“circumstances” he speaks of revolved around the
requirement that the claimants plead adequately the
government’s intention to take by its overt, physical
actions.
It is said that the petition alleges, in
general terms, a taking and intention to
take by the United States; that this
allegation alone, although general, is an
8

allegation of all the facts necessary to
give a cause of action; and that the
specification in detail of the facts relied
upon may be treated as surplusage. To
this contention there are several
answers.
Id. at 336. In the end, he concluded that the
claimants could not plead adequately the
government’s intention, either an avowed intention
or one implied by the authorized acts of its officers.
See id. at 337 (“The facts stated show, as indicated
above, not only an absence of taking and of intention
to take the claimants’ property, but also an absence
of authority to do so in those who did the acts relied
upon [i.e., installing and firing new guns].”).
Hence, contrary to the Respondents and Judge
Paez, both the majority and the dissent in
Portsmouth Harbor agreed that whether an
easement had been taken turned on whether the
government had an intention, or “abiding purpose,”
id. at 330, to fire guns in order physically to
“‘subordinat[e] the strip of [private] land . . . to the
right and privilege of the Government,’” id. at 329.
The physically invasive character of the practice
firing of the big coastal guns, although occurring
only sporadically, was the determinant. Impaired
economic use of the hotel played no role in deciding
the question.
Alongside Portsmouth Harbor, the Respondents
cite United States v. Causby, 328 U.S. 256 (1946).
See BIO at 14-15. Judge Paez does so as well,
stating that Causby applied the “same basic
principle” found in Portsmouth Harbor. Cedar Point,
956 F.3d at 1163. In the eyes of both Judge Paez
and the Respondents that principle is that takings
9

were found in those two cases only because the
“physical invasions substantially impaired the
plaintiffs’ use of their property.” BIO at 15; see
Cedar Point, 956 F.3d at 1163 (“loss . . . complete”;
“severe negative effects”).
As we have shown, that view of Portsmouth
Harbor does not withstand scrutiny. While some of
the language used in Causby might lend credence to
their view, the better angels of Causby understood
clearly the “philosophy of Portsmouth Harbor.”
Causby, 328 U.S. at 262-63. That “philosophy”
focused on those physical acts of the government
that represent “a definite exercise of complete
dominion and control over the surface of the land”
from the air (via artillery shells in Portsmouth
Harbor and via flights of heavy military aircraft in
Causby). Id. at 262. See Portsmouth Harbor, 260
U.S. at 329 (artillery fire as physical acts
“‘subordinating the strip of land between the battery
and the sea to the right and privilege of the
Government’”).
Hence, as in Portsmouth Harbor, it was the
character of the government’s action as a “direct
invasion,” Causby, 328 U.S. at 265-66, that
determined the question whether there was a taking.
In Causby, as in Portsmouth Harbor, the
government’s actions were such that “a servitude
ha[d] been imposed upon the land” physically. Id. at
267, 262 (“easement of flight”). Later cases of this
Court have seemed to similarly eschew any
minimum quantum of damages as a needed element
in the physical taking of an easement. See First
English Evangelical Lutheran Church of Glendale v.
Los Angeles County, 482 U.S. 304, 329–30 (1987)
(“diminution of value inquiry is unique to regulatory
takings”) (contrasting to Causby et al.); Tahoe-Sierra
10

Preservation Council, Inc. v. Tahoe Regional
Planning Agency, 535 U.S. 302, 322 (2002) (when
government “physically takes possession of an
interest in property . . . , it has a categorical duty to
compensate . . . . for that share no matter how
small”) (citing Causby et al.); Lucas v. South
Carolina Coastal Council, 505 U.S. 1003, 1015
(1992) (in easement case, observing “(at least with
regard to permanent [physical] invasions), no matter
how minute the intrusion, . . . we have required
compensation”) (citing Causby et al.).
In short, these two pre-Penn Central cases cannot
be impressed into the service of the Respondents’
defense. They support the Petitioners’ physical
invasion theory.
II. Kaiser Aetna Was Not Decided As A Penn
Central Regulatory Taking; The Easement
Resulted From An Imposed Physical
Invasion.
The Respondents’ reliance on Kaiser Aetna v.
United States, 444 U.S. 164 (1979), is equally
misplaced. Like the Ninth Circuit, they contend that
Kaiser Aetna illustrates that the facts of the present
case require the use of “a multi-factor regulatory
takings analysis under Penn Central.” BIO at 12; see
also Cedar Point Nursery v. Shiroma, 923 F.3d 524,
533-34 & n.8 (9th Cir. 2019) (strongly intimating
same). In fact, Kaiser Aetna was clearly not a Penn
Central case.
In Kaiser Aetna, the United States brought an
action against the owners of a marina.
The
government asserted that the changes that the
owners had made to a shallow, landlocked pond in
order to create the marina had made it subject to a
11

navigable servitude. Kaiser Aetna, 444 U.S. at 165.
The reason given was that the newly fashioned
marina was connected to the nearby bay, which was
deemed to be part of the navigable waters of the
United States. Id. at 165-66, 168. “Thus,” so the
government contended, “the public acquired a right
of access to what was once petitioners’ private pond.”
Id. at 166; see also id. at 168, 170.
In the
government’s view, a servitude could be obtained
without cost to the public because it was,
supposedly, the creation of background legal
principles governing such waters. See, e.g., Lucas,
505 U.S. at 1028-29 (“we assuredly would permit the
government to assert a permanent easement that
was a pre-existing limitation upon the land owner’s
title”) (emphasis omitted). The owners denied the
existence of a background servitude and claimed
that the government was engaged in an
uncompensated taking.
This Court prefaced its ruling with an important
caveat. It reminded the government that “navigable
waters of the United States” was a term whose
meaning varies according to the legal question being
asked. Kaiser Aetna, 444 U.S. at 170-71. The Court
noted that while the concept may define the scope of
the federal government’s power to regulate,
including its power to regulate the pond, “it does not
follow that the pond is also subject to a public right
of access,” even were it to contain navigable waters.
Id. at 172-73. This important categorical distinction
between regulation and physical taking underlies
much of the reasoning of the case.
Not surprisingly, then, when explaining why it
was ruling against the government, the Court noted
that the public access that the government was
trying to obtain went “so far beyond ordinary
12

regulation as to amount to a taking.” Id. at 178.
First, it pointed out that a navigational servitude
may be found only when waters “in their natural
condition are in fact capable of supporting public
navigation” and that in Kaiser Aetna, “prior to its
improvement, Kuapa Pond was incapable of being
used as a continuous highway for the purpose of
navigation in interstate commerce.” Id. at 175, 178.
Second, it observed that under the law of Hawai’i the
pond had always been considered to be private
property. Id. at 179. In effect the Court was saying
that the United States could not obtain the desired
servitude gratis, i.e., on the basis of background
legal principles of interstate commerce; if it wanted
to impose the servitude, it would have to pay for it.
See id. at 180. See also Lucas, 505 U.S. at 1029
(citing Kaiser Aetna).
In the pivotal passage of the decision, the
Court reasoned as follows:
In this case, we hold that the “right to
exclude,” so universally held to be a
fundamental element of the property
right, falls within this category of
interests that the Government cannot
take without compensation. This is not
a case in which the Government is
exercising its regulatory power in a
manner that will cause an insubstantial
devaluation of petitioners’ private
property; rather, the imposition of the
navigational servitude in this context
will result in an actual physical
invasion of the privately owned marina.
Compare Andrus v. Allard, 444 U.S. 51
at 65-66, 100 S.Ct. 318, at 326-327,
13

62 L.Ed.2d 210 [1979], with the
traditional taking of fee interests in
United States ex rel. TVA v. Powelson,
319 U.S. 266, 63 S.Ct. 1047, 87 L.Ed.
1390 (1943), and in United States v.
Miller, 317 U.S. 369, 63 S.Ct. 276,
87 L.Ed. 336 (1943). And even if the
Government physically invades only
an easement in property, it must
nonetheless pay just compensation. See
United States v. Causby, 328 U.S. 256,
265, 66 S.Ct. 1062, 1067, 90 L.Ed. 1206
(1946); Portsmouth Co. v. United States,
260 U.S. 327, 43 S.Ct. 135, 67 L.Ed. 287
(1922).
Kaiser Aetna, 444 U.S. at 179-180 (emphasis added).
The citations given in that passage, which twice
mentions physical invasions, are decisive as to what
kind of taking analysis underlies Kaiser Aetna. The
Court says that a taking would occur because there
would be “an actual physical invasion” if public
access were appropriated, and its contrast of Allard
with Powelson and Miller shows that the Court
meant what it said.
Allard was issued only one week before Kaiser
Aetna and was explicitly decided based on Penn
Central, which had itself been decided only 18
months earlier. See Allard, 444 U.S. at 65-66 (citing
Penn Central and applying its approach).
Significantly, Allard disavowed any physical seizure
or invasion.
See id. at 65 (“The regulations
challenged here do not compel the surrender of the
artifacts, and there is no physical invasion or
restraint upon them.”) (emphasis added).
Right
there, Allard and Penn Central should be seen to be
14

inapplicable to Kaiser Aetna and to the “actual
physical invasion” the Court found would occur in
the “context” of that case. Kaiser Aetna, 444 U.S. at
180.
The other two cases of the contrast drawn by the
Court, Powelson and Miller, were decided decades
before Penn Central and, like Kaiser Aetna, both
involved actual physical invasion of private land.
See Powelson, 319 U.S. at 268 (“This case arises out
of condemnation by the United States on behalf of
the Tennessee Valley Authority of about 12,000
acres of land in North Carolina[.]”); Miller, 317 U.S.
at 88 (“The United States condemned a strip across
the respondents’ lands for tracks of the Central
Pacific Railroad[.]”).
It is at this point in Kaiser Aetna that the Court
cinched its reasoning about the navigational
servitude, saying that “even if the Government
physically invades only an easement in property, it
must nonetheless pay just compensation.” 444 U.S.
at 180 (emphasis added). Tellingly, as support it
cited Portsmouth Harbor and Causby, two cases
which concerned the physical imposition of an
easement. See supra pp. 3-11.
While Kaiser Aetna at one point (444 U.S. at 17475) acknowledges the takings law principles
“recently pointed out” in Penn Central and says later
(id. at 178) that the public access claimed by the
government is a taking “under the logic” of Penn
Central’s progenitor, Pennsylvania Coal Co. v.
Mahon, 260 U.S. 393 (1922), Kaiser Aetna clearly
was not decided on the basis of a Penn Central
multifactor regulatory takings analysis. It was
decided on the principle that a permanent physical
invasion is a taking. See Lucas, 505 U.S. at 1029.
15

Despite occasional wording that might suggest
otherwise to the Respondents, that was clearly the
Court’s own view, as may be seen by its contrasting
one Penn Central case which involved “no physical
invasion” with four cases involving physical
invasions not unlike that it found in Kaiser Aetna
itself.
CONCLUSION
For the reasons given above, and contrary to the
Respondents’ arguments, the Court should decline to
find that physical invasions like those alleged here
should be analyzed as regulatory takings on the
authority of the three cases examined in this brief.
Respectfully submitted,
NEW ENGLAND LEGAL FOUNDATION,
By its attorneys,
/s/

John Pagliaro

John Pagliaro, Staff Attorney
Counsel of Record
Martin J. Newhouse, President
New England Legal Foundation
150 Lincoln Street
Boston, Massachusetts 02111
Telephone: (617) 695-3660
johnpagliaro@nelfonline.org
Dated: January 6, 2021

16

